HARVARD LAW SCHOOL
L AWRENCE L ESSIG
R OY L. F URMAN P ROFESSOR OF L AW AND L EADERSHIP
1563 M ASSACHUSETTS A VE
C AMBRIDGE · M ASSACHUSETTS · 02138
T EL . (617) 496-8853
LESSIG @ LAW . HARVARD . EDU

May 12, 2020

Denise McNerney
Merits Cases Clerk
Office of the Clerk
Supreme Court
via email
Re: 19-465: Alex Keyssar book

Dear Ms. McNerney:
We have cited in our reply brief Alex Keyssar’s forthcoming
book, Why Do We Still Have the Electoral College?. The book’s
publication was delayed. We have arranged to make electronic
versions available to anyone who requests. Such copies will provide
access until the book is published. Requests should be sent by
email to a2lessig@pobox.com.
Sincerely,

Lawrence Lessig

1

